App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
RAVNEET SINGH, AKA Ravi Singh,
Defendant-Appellant.
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JOSE SUSUMO AZANO MATSURA,
AKA Mr. A, AKA Mr. Lambo,
Defendant-Appellant.

No. 17-50337
D.C. No.
3:14-cr-00388MMA-2

No. 17-50387
D.C. No.
3:14-cr-00388MMA-1
OPINION

Appeal from the United States District Court
for the Southern District of California,
Michael M. Anello, District Judge, Presiding
Argued and Submitted March 13, 2019
San Francisco, California
Filed May 16, 2019
Before: MILAN D. SMITH, JR., PAUL J. WATFORD,
and ANDREW D. HURWITZ, Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

App. 2
COUNSEL
Harold J. Krent (argued), IIT Chicago-Kent College of
Law, Chicago, Illinois; Todd W. Burns, Burns & Cohan,
San Diego, California; for Defendant-Appellant Ravneet
Singh.
Charles M. Sevilla (argued), San Diego, California, for
Defendant-Appellant Jose Susumo Azano Matsura.
Helen H. Hong (argued), Mark Pletcher, Billy Joe
McLain, and Phillip L.B. Halpern, Assistant United
States Attorneys; Robert S. Brewer Jr., United States
Attorney; United States Attorney’s Office, San Diego,
California; for Plaintiff-Appellee.
Charles H. Bell Jr. and Terry J. Martin, Bell McAndrews & Hiltachk LLP, Sacramento, California, for
Amici Curiae California Campaign and Election Law
Attorneys.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
M. SMITH, Circuit Judge:
Jose Susumo Azano Matsura aspired to participate in developing San Diego and turning it into the
Miami Beach of the west coast. To help achieve this
goal, Azano and his co-conspirators sought to influence
local politicians during the 2012 San Diego election cycle by providing campaign contributions. However, as
a foreign national, Azano was prohibited by federal law
from donating or contributing to American campaigns.

App. 3
A jury convicted Azano and Ravneet Singh of various crimes stemming from the campaign contributions; Azano was also convicted of violating federal
firearms law. Azano and Singh (together, Appellants)
now appeal, raising a litany of constitutional, statutory, and procedural arguments. Although we affirm
the district court in large part, we reverse their convictions on count thirty-seven (obstruction of justice in violation of 18 U.S.C. § 1519).
FACTUAL AND PROCEDURAL BACKGROUND
I. Factual Background
Azano ran a successful technology business based
in Mexico City, but maintained a family home in San
Diego. Although Azano’s wife and children are United
States citizens, he is neither a naturalized United
States citizen nor a permanent resident. Azano, a citizen of Mexico, entered the United States in January
2010 on a B1/B2 visa, which allows visitors entry for
pleasure or business if the noncitizen “intends to leave
the United States at the end of the temporary stay.” 22
C.F.R. § 41.31(a)(1). Azano traveled weekly back and
forth from San Diego to Mexico City for business purposes.
At trial, the government introduced evidence that
Azano had an interest in developing San Diego, and
particularly the Chula Vista waterfront area. The government introduced testimony that in order to achieve
his development goals, Azano believed that he needed
government cooperation, which included a relationship

App. 4
with the mayor of San Diego. Azano had previously
formed such relationships in Mexico by making campaign contributions to candidates for various offices.
Azano set about implementing a similar strategy in
San Diego. With the aid of his co-conspirators, Azano
sought to secure the favor of San Diego mayoral candidates who he believed would support his development
plans. Azano first supported Bonnie Dumanis during
the 2012 primary elections, but when she lost, he supported Bob Filner in the general election. Azano did so
despite the fact that federal law prohibits “a foreign
national, directly or indirectly,” from making “a contribution or donation of money or other thing of value . . .
in connection with a Federal, State, or local election.”
52 U.S.C. § 30121(a).
Azano’s funding scheme involved a number of people. Ernie Encinas, head of Azano’s security team, was
a former San Diego police officer with useful political
connections who helped represent Azano’s interests
within the two campaign organizations. Marco Polo
Cortes provided lobbying connections and helped facilitate initial meetings with the two campaign staffs.
Mark Chase was a local car dealer and Azano’s “good
friend,” who arranged straw donors to donate to the
Dumanis mayoral campaign, and later disguised
Azano’s donations to Filner’s political action committee (PAC) and other entities by writing checks from his
personal and business accounts. Edward Susumo
Azano Hester, Azano’s son, recruited straw donors to
give to the Dumanis campaign.

App. 5
Singh was the CEO of ElectionMall, a media platform offering a “one-stop sho[p] of technology to candidates and political parties running for office.” Singh
first worked with Azano on a Mexican presidential
campaign in 2011. This professional relationship continued into the mayoral campaigns of Dumanis and
Filner. Aaron Rosheim, the former director of web
strategy at ElectionMall, testified that Azano paid
ElectionMall for work on the San Diego campaigns. For
this work, Singh billed Azano’s Mexican companies,
using the code names “Betty Boop” for Dumanis’s campaign and “Plastic Man” for Filner’s campaign. Evidence also suggested that Singh tried to conceal any
paper trail of his work for Azano. An internal ElectionMall email from Singh with the subject title “OLD
invoices for Mr. A” stated: “Please don’t have cynthia or
anyone else send things with a code name. And then
list the clients name in a [sic] email. That is stupid and
dangerous for me.” Additionally, in response to an
email from Encinas about forming a PAC for Dumanis,
Singh stated, “I am not responding to this email.
Bec[au]se of the legal ram[i]fications.”
II. Procedural Background
A federal grand jury returned a Third Superseding
Indictment (the Indictment) charging four individuals—Azano, Singh, Cortes, and Hester—and one corporate defendant, ElectionMall, with illegally conspiring
to commit campaign finance fraud in the 2012 San Diego mayoral elections. The government later dropped
ElectionMall as a defendant and the four individuals

App. 6
were tried together. After trial, Cortes and Hester
reached plea agreements and pled guilty to participating in the campaign contribution scheme. Encinas and
Chase, who had been charged as coconspirators in a
separate indictment, both also pled guilty to participating in the campaign contribution scheme.
Appellants were charged in count one of the Indictment with conspiracy to violate the Federal Election Campaign Act (FECA), 52 U.S.C. §§ 30109(d)(1)(A)
and 30121(a)(1)(A),1 for unlawful campaign donations
by a foreign national, and conspiracy to falsify campaign records, in violation of 18 U.S.C. § 1519. Both
were charged in count three with the substantive offense of making unlawful campaign donations as a foreign national. Singh was charged in counts thirty-two
and thirty-seven with the substantive offense of falsifying campaign records in violation of 18 U.S.C. § 1519.
Azano was similarly charged in counts five through
thirty-seven with the substantive offense of falsifying
campaign records. Finally, Azano was charged in count
four with making a conduit contribution in connection
with a federal election, in violation of 52 U.S.C.
§§ 30109(d)(1)(A) and 30122, and in count thirty-nine
with unlawfully possessing a firearm as an alien in violation of 18 U.S.C. § 922(g)(5)(B).
A jury found Appellants guilty on all the counts
with which they were respectively charged. On October
27, 2017, the district court sentenced Azano to three
years in custody and three years of supervised release,
1

Previously codified at 2 U.S.C. § 441e.

App. 7
and on August 31, 2017 sentenced Singh to fifteen
months in custody and three years of supervised release. Appellants timely appealed.
ANALYSIS
Appellants raise a number of claims contesting
their convictions. We address each in turn.
I
Appellants first argue that 52 U.S.C. § 30121 is unconstitutional on two grounds: (1) it exceeds Congress’s
jurisdiction to legislate concerning state and local
elections, and (2) it violates foreign nationals’ First
Amendment speech rights. We review the constitutionality of a statute de novo. United States v. Jones, 231
F.3d 508, 513 (9th Cir. 2000).
We first consider the genesis of § 30121. As donations and contributions have grown more important to
the campaign process, so too has concern over foreign
influence in American elections. In 1966, Congress
amended the Foreign Agents Registration Act to prohibit foreign governments and entities from contributing to American political candidates. See Pub. L. No.
89-486, § 8, 80 Stat. 244, 248–49. Subsequently, Congress banned all foreign nationals2 from making such
2

A “foreign national” is “a foreign principal” or “an individual who is not a citizen of the United States or a national of the
United States . . . and who is not lawfully admitted for permanent
residence.” 52 U.S.C. § 30121(b).

App. 8
contributions. See Federal Election Campaign Act
Amendments of 1974, Pub. L. No. 93-443, § 101(d), 88
Stat. 1263, 1267.
Still, suspicions of foreign influence in American
elections remained a pervasive concern. Following the
1996 election, the Senate Committee on Governmental
Affairs investigated foreign campaign contributions.
See S. Rep. No. 105-167 (1998). The Committee Report
identified efforts by agents of the People’s Republic of
China to “influence U.S. policies and elections through,
among other means, financing election campaigns.” Id.,
pt. 1, at 47. The report focused chiefly on federal elections, but also referred to a “seeding program” to develop individuals to run in state and local elections. Id.,
pt. 2, at 2509.
In response to the Committee Report, Congress
enacted the Bipartisan Campaign Reform Act of 2002
(BCRA), which amended FECA and further limited foreign nationals’ ability to participate in elections. See
Pub. L. No. 107-155, § 303, 116 Stat. 81, 96. As amended,
§ 30121(a) currently states,
It shall be unlawful for—
(1) a foreign national, directly or indirectly, to make—
(A) a contribution or donation of
money or other thing of value, or to
make an express or implied promise
to make a contribution or donation in
connection with a Federal, State, or
local election;

App. 9
(B) a contribution or donation to a
committee of a political party; or
(C) an expenditure, independent expenditure, or disbursement for an
electioneering communication . . .
52 U.S.C. § 30121(a).
A
Appellants challenge whether Congress has the
power to prohibit foreign nationals from donating and
contributing to state and local elections. Due to the federal government’s plenary power over foreign affairs
and immigration, we find that Congress has such a
power.
The federal government has the “inherent power
as sovereign to control and conduct relations with foreign nations.” Arizona v. United States, 567 U.S. 387,
395 (2012); see also United States v. Curtiss-Wright
Exp. Corp., 299 U.S. 304, 318–19 (1936). The Constitution grants the federal government an “undoubted
power over the subject of immigration and the status
of aliens.” Arizona, 567 U.S. at 394; see also U.S. Const.
art. I, § 8, cl. 4 (granting Congress the power to “establish an uniform Rule of Naturalization”). Thus, where,
as here, Congress has made a judgment on a matter of
foreign affairs and national security by barring
foreign nationals from contributing to our election
processes, it retains a broad power to legislate. The Supreme Court has recognized that “any policy toward
aliens is vitally and intricately interwoven with

App. 10
contemporaneous policies in regard to the conduct of
foreign relations, the war power, and the maintenance
of a republican form of government.” Harisiades v.
Shaughnessy, 342 U.S. 580, 588–89 (1952). A prohibition on campaign donations and contributions by foreign nationals is necessary and proper to the exercise
of the immigration and foreign relations powers. See
U.S. Const. art. I, § 8, cl. 18. Accordingly, Congress was
within its power when it acted to protect the country’s
political processes after recognizing the susceptibility
of the elections process to foreign interference.3
Appellants assert that because the Constitution
“intended to preserve to the States the power . . . to establish and maintain their own separate and independent governments,” Congress may not legislate
over state and local elections at all. Oregon v. Mitchell,
400 U.S. 112, 124 (1970) (opinion of Black, J.). In Mitchell, the Court found unconstitutional a provision of the
Voting Rights Act that set the voting age for state and
local elections at eighteen. Id. at 117–18. Similarly, in
James v. Bowman, the Court struck down a federal
statute criminalizing bribery in state and local elections. 190 U.S. 127, 142 (1903).
We find these cases inapposite. They discuss Congress’s authority to regulate state elections as they relate to citizens of the United States. In contrast,
§ 30121(a)(1) regulates only foreign nationals, which is
3

Importantly, § 30121(a)(1) bars only foreign nationals from
making donations and contributions and does not reach the actions of American citizens or permanent residents.

App. 11
within the ambit of Congress’s broad power to regulate
foreign affairs and condition immigration. Therefore,
the case before us is readily distinguished from Mitchell and James.
Accordingly, we hold that Congress acted within
its constitutional authority in enacting § 30121(a).
B
We next consider Appellants’ First Amendment
challenge. The district court determined § 30121(a)
does not violate foreign nationals’ First Amendment
rights, concluding that “it is bound by [the decision in
Bluman v. FEC, 800 F. Supp. 2d 281 (D.D.C. 2011),
aff ’d, 565 U.S. 1104 (2012)] due to the Supreme Court’s
summary affirmance.” Appellants argue that we are
not bound by the summary affirmance, because “a
summary affirmance by [the Supreme] Court is a ‘rather slender reed’ on which to rest future decisions.”
Morse v. Republican Party of Va., 517 U.S. 186, 203 n.21
(1996) (quoting Anderson v. Celebrezze, 460 U.S. 780,
784 n.5 (1983)). Further, because Bluman considered
foreign national participation in a federal election—
not, as here, a state or local election—Appellants argue
that the summary affirmance poses no bar.
“[T]he Supreme Court’s summary affirmances
bind lower courts, unless subsequent developments
suggest otherwise. . . . Although . . . the Supreme
Court is more willing to reconsider its own summary
dispositions than it is to revisit its prior opinions, this
principle does not release the lower courts from the

App. 12
binding effect of summary affirmances.” United States
v. Blaine Cty., 363 F.3d 897, 904 (9th Cir. 2004) (citing
Hicks v. Miranda, 422 U.S. 332, 344–45 (1975)). And,
although “[t]he precedential effect of a summary affirmance extends no further than the precise issues presented and necessarily decided by those actions,” Green
v. City of Tucson, 340 F.3d 891, 902 (9th Cir. 2003)
(quoting Anderson, 460 U.S. at 784 n.5), Bluman did
decide the precise issue present in this case. In Bluman, a plaintiff sought to donate money to federal candidates and a candidate running for the New York
state senate. 800 F. Supp. 2d at 285. Thus, we agree
with the district court that we are bound by the Supreme Court’s summary affirmance in Bluman.
II
The penalty provision applying to violations of
§ 30121 requires that an individual act “knowingly and
willfully” when making a prohibited donation or contribution:
(1)(A) Any person who knowingly and willfully commits a violation of any provision of
this Act which involves the making, receiving,
or reporting of any contribution, donation, or
expenditure—
(i) aggregating $ 25,000 or more during
a calendar year shall be fined under Title
18, or imprisoned for not more than 5
years, or both . . .

App. 13
52 U.S.C. § 30109(d) (emphasis added). Appellants argue that the district court committed reversible error
by failing to properly instruct the jury as to the required mental state. Appellants argue that Ratzlaf v.
United States, 510 U.S. 135 (1994), requires that the
government prove that the defendants harbored the
specific intent to evade § 30121, not merely the intent
to commit unlawful conduct. Singh additionally argues
that the district court erred by failing to instruct the
jury that “knowledge of Azano’s immigration status
was a material element of the crime.”
“We review the formulation of jury instructions for
abuse of discretion, but review de novo whether those
instructions correctly state the elements of the offense
and adequately cover the defendant’s theory of the
case.” United States v. Liew, 856 F.3d 585, 595–96 (9th
Cir. 2017).
A
In its jury instructions covering Azano’s principal
offense, the district court stated the intent element for
§§ 30109(d)(1)(A) and 30121 as follows:
Fourth, defendant acted knowingly and willfully.
...
An act is done willfully if the defendant acted
with knowledge that some part of his course of
conduct was unlawful and with the intent to
do something the law forbids, and again not

App. 14
by mistake or accident. In other words, a person acts “willfully” when he acts with a bad
purpose to disobey or disregard the law.
It is not necessary for the government to prove
that the defendant was aware of the specific
provision of the law that he is charged with violating. Rather, it is sufficient for the defendant to act knowing that his conduct is
unlawful, even if he does not know precisely
which law or regulation makes it so.
Azano objected to this instruction, and proposed instead the jury be told that “in order to find that a defendant knowingly and willfully committed the crime
charged in this count, you must find that he knew his
actions violated the prohibition on foreign national
contributions at the time he performed them.” Similarly, the jury instruction for Singh’s charge required
only “knowledge that some part of his course of conduct
was unlawful,” not that he knew specifically of the prohibition on foreign national contributions.4
“The word ‘willfully’ is sometimes said to be ‘a
word of many meanings’ whose construction is often
dependent on the context in which it appears.” Bryan
v. United States, 524 U.S. 184, 191 (1998). There are
two primary interpretations of “willfully” in the criminal context. Generally, “to establish a ‘willful’ violation
of a statute, ‘the Government must prove that the defendant acted with knowledge that his conduct was
4

Although Singh’s proposed jury instructions did not clearly
request a heightened standard, we nonetheless address his arguments.

App. 15
unlawful.’ ” Id. at 191–92 (quoting Ratzlaf, 510 U.S. at
137). Alternatively, a willful violation may require
proof that the defendant knows the specific legal prohibition or law that his conduct violates. See, e.g.,
Ratzlaf, 510 U.S. at 149. In Ratzlaf, a case involving
domestic financial transactions, the Court held that
“willfulness” required the government to prove that
the defendant knew “not only of the bank’s duty to report cash transactions in excess of $ 10,000, but also of
his duty not to avoid triggering such a report.” Id. at
146–47. In other words, the government had to show
that the defendant knew the precise prohibition at issue. Similarly, several tax statutes require proof that
the defendant was aware of the provision she is
charged with violating. See, e.g., Cheek v. United States,
498 U.S. 192, 201 (1991); United States v. DeTar, 832
F.2d 1110, 1114 (9th Cir. 1987). Cases requiring this
heightened standard “involved highly technical statutes that presented the danger of ensnaring individuals engaged in apparently innocent conduct.” Bryan,
524 U.S. at 194.
In contrast, § 30121 is not a technical statute, nor
does it present the same concern of inadvertently ensnaring uninformed individuals. In Ratzlaf, the Court
discussed how an identical action—structuring a
transaction—could have different legal and tax implications simply by varying the amount of the transaction. 510 U.S. at 145. Because the line between liability
and innocent conduct in that case was so narrow, the
requirement of a heightened standard was necessary.
We see no such narrow line in § 30121, which simply

App. 16
prohibits foreign nationals from donating or contributing to candidates or political parties. Azano suggests
that it may be difficult to discern whether a specific donation is prohibited since foreign nationals may still
donate to “issue advocacy,” but the Court did so clearly
in FEC v. Wisconsin Right to Life, Inc., 551 U.S. 449,
456 (2007). Azano further suggests it may be difficult
to discern what is prohibited because only in the last
thirty-five years were donations to political candidates
and parties criminalized. Yet, it is our “traditional rule
that ignorance of the law is no excuse” from liability
and Azano’s distinctions, then, provide no basis to apply the heightened standard. Bryan, 524 U.S. at 196.
Azano next points to United States v. Goland, 959
F.2d 1449 (9th Cir. 1992), which involved a jury instruction using the heightened Ratzlaf standard to define “willfully” in § 30109(d)(1)(A). Azano argues that
because we have previously endorsed a heightened
standard, we should do so again. However, Goland addressed only whether the district court abused its discretion by failing to instruct the jury that it may not
infer the defendant’s specific intent to violate FECA
simply from his failure to adhere to administrative or
civil provisions. Id. at 1454. We did not consider
whether § 30109(d)(1)(A) requires a heightened standard. Similarly, in United States v. Whittemore, 776 F.3d
1074, 1078–81 (9th Cir. 2015), we assessed only
whether the jury instruction given by the district court
adequately allowed the jury to consider the defense’s
theory, not which standard was required. Neither case

App. 17
provides meaningful guidance for the question presented here.
Azano also cites language in the district court’s
opinion in Bluman for the proposition that “seeking
criminal penalties for violations of [§ 30121]—which
requires that the defendant act ‘willfully’— . . . require[s] proof of the defendant’s knowledge of the law.”
800 F. Supp. 2d at 292 (citation omitted). However, this
statement played no role in the judgment of the panel,
and the court provided no support for it besides a citation to United States v. Moore, 612 F.3d 698, 702–04
(D.C. Cir. 2010) (Kavanaugh, J., concurring), a case considering an entirely different statute. Not an essential
part of the holding and with no analysis, this language
in Bluman does not persuade us that the heightened
specific intent standard is appropriate for this statute.
Instead, we find persuasive the analysis of a sister
circuit that addressed whether the defendants acted
“knowingly and willfully” pursuant to § 30109(d)(1)(A)
when charged with violating FECA’s reporting requirements under § 30104. In United States v. Benton, the
court held that the district court did not abuse its
discretion when giving a jury instruction adopting
the Bryan standard of willfulness. 890 F.3d 697, 715
(8th Cir. 2018). It rejected the defendant’s argument
that “willfully” under FECA falls within the exception for highly technical statutes. We reach the same
conclusion here. Appellants make no showing that
§ 30109(d)(1)(A) requires application of the heightened
standard.

App. 18
Nor does the rule of lenity require that we interpret “willfully” to require a heightened standard. While
“ambiguity concerning the ambit of criminal statutes
should be resolved in favor of lenity,” Skilling v. United
States, 561 U.S. 358, 410 (2010) (quoting Cleveland v.
United States, 531 U.S. 12, 25 (2000)), Azano asks us to
conclude that any criminal statute that imports a willfulness mens rea is somehow vague or ambiguous. This
does not comport with the Supreme Court’s case law,
as we generally apply the willfulness standard articulated in Bryan, and require the heightened specific intent standard only in exceptional cases. See 524 U.S. at
194–95 (“[W]e held that these statutes ‘carv[e] out an
exception to the traditional rule’ that ignorance of the
law is no excuse and require that the defendant have
knowledge of the law.” (footnote omitted) (second alteration in original) (quoting Cheek, 498 U.S. at 200)).
Azano’s related argument that a heightened specific intent standard properly applied to the conspiracy
charge fails for the same reasons. Because it appropriately applied the Bryan standard, the district court did
not abuse its discretion in stating the mens rea requirement for counts one or three. Moreover, the evidence proffered at trial indicated that Appellants took
steps to conceal their actions, which suggests that they
possessed knowledge that their actions were unlawful,
not that they unwittingly engaged in criminal conduct.

App. 19
B
As to the charge that Singh aided and abetted
Azano’s unlawful donations, the district court’s jury instruction stated:
The evidence must show beyond a reasonable
doubt that the defendant acted with the
knowledge and intention of helping [Azano] to
commit the crime of making donations and
contributions by a foreign national aggregating at least $ 25,000 in calendar year 2012, in
violation of Title 2, United States Code, Sections 441e(a)(1)(A) and 437g(d)(1)(A).
Singh objected and proposed, in part, that the jury be
told that “the government must prove . . . beyond a reasonable doubt . . . that Ravneet Singh knew that Mr.
Azano was not a United States citizen or legal permanent resident.” Singh argues that the district court’s
failure to include the material element that he knew
Azano lacked immigration status constitutes reversible error.
The government agrees that Singh’s knowledge of
Azano’s immigration status was a material element of
the charged crime, but argues that the element was included within the district court’s broader instructions.
That Singh was charged with aiding and abetting the
making of donations by a foreign national implies that
Singh must know that Azano was a foreign national.
The government also points to various places in the
record where the parties noted this requirement. For
example, the prosecutor stated, “We have to prove that

App. 20
the defendant knew that [Azano] was a foreign national.”
We agree with the government. “The jury must be
instructed as to the defense theory of the case, but the
exact language proposed by the defendant need not be
used, and it is not error to refuse a proposed instruction so long as the other instructions in their entirety
cover that theory.” United States v. Kenny, 645 F.2d
1323, 1337 (9th Cir. 1981). Although the district court
could have properly included an express instruction regarding Singh’s knowledge of Azano’s immigration status, the instructions, as a whole, adequately covered
that element. The instructions stated, “The evidence
must show beyond a reasonable doubt that [Singh]
acted with the knowledge and intention of helping
[Azano] to commit the crime of making donations and
contributions by a foreign national.” The jury thus
knew that in order to find Singh guilty, it had to find
that Singh was aware that Azano was a foreign national.
The arguments and evidence presented at trial
further clarified this requirement. Singh’s primary defense was that he did not know Azano’s immigration
status. Defense counsel stated in his closing argument,
“The government has absolutely failed to prove beyond
a reasonable doubt that Ravi Singh knew that Mr.
Azano was not a citizen nor a green card holder and
therefore was ineligible to do anything.” In response to
this theory, the government presented ample evidence
of Singh’s knowledge. First, Singh’s relationship with
Azano started with services relating to the Mexican

App. 21
presidential election in 2011 in connection with which
he traveled to Mexico with Azano. The Appellants’ relationship continued thereafter, and Singh performed
other work for Azano’s Mexican businesses. Next,
Singh took clear steps to conceal Azano’s involvement
in the campaigns. In emails, Singh admonished coworkers for improper use of code names, and refused
to communicate about relevant topics directly due to
the “legal ram[i]fications.”
In sum, we find that the jury instructions sufficiently covered the required mental state, as required
by § 30109 and Singh’s defense theory.
III
Appellants contest their convictions under counts
five through thirty-seven, arguing there was insufficient evidence to satisfy the material elements of
§ 1519. “We review the sufficiency of the evidence de
novo.” United States v. Kaplan, 836 F.3d 1199, 1211
(9th Cir. 2016). We “view[ ] the evidence in the light
most favorable to the prosecution” and ask whether
“any rational trier of fact could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979).
Section 1519 was enacted as part of the SarbanesOxley Act of 2002, Pub. L. No. 107-204, 116 Stat. 745,
and “was intended to prohibit, in particular, corporate
document-shredding to hide evidence of financial
wrongdoing.” Yates v. United States, 135 S. Ct. 1074,
1081 (2015). It provides that

App. 22
[w]hoever knowingly alters, destroys, mutilates, conceals, covers up, falsifies, or makes a
false entry in any record, document, or tangible object with the intent to impede, obstruct,
or influence the investigation or proper administration of any matter within the jurisdiction of any department or agency of the
United States . . . shall be fined under this title, imprisoned not more than 20 years, or
both.
18 U.S.C. § 1519. “In order to prove a violation of
§ 1519, the Government must show that the defendant
(1) knowingly committed one of the enumerated acts in
the statute, such as destroying or concealing; (2) towards ‘any record, document, or tangible object’; (3)
with the intent to obstruct an actual or contemplated
investigation by the United States of a matter within
its jurisdiction.” United States v. Katakis, 800 F.3d
1017, 1023 (9th Cir. 2015).
The government offered two theories on the falsification of records charges. For counts thirty-two and
thirty-seven, the government argued that Singh failed
to disclose that Azano paid for Singh’s social media
services rendered to both the Dumanis and Filner
campaigns. Dumanis’s campaign manager, Jennifer
Tierney, discussed payment options with Singh, who
responded that he would “voluntarily help” to “break[ ]
into the San Diego market” after being warned “[t]hat
no one could pay someone to volunteer in a campaign.” For the Filner campaign, campaign manager
Ed Clancy testified that when discussing payment options, Singh responded, “Don’t worry. It’s taken care of.”

App. 23
The government argued that these material omissions
caused the campaigns to file false entries on campaign
disclosure reports. For Azano’s remaining counts, the
government argued that he made false statements to
the campaigns by using strawmen donors to conceal
his political donations. Azano never donated himself,
but instead instructed others to write checks on his silent behalf, with the promise of reimbursement. The
government argued that these straw donors caused the
campaigns to file false entries on campaign disclosure
reports.
A
Appellants first argue that the government failed
to introduce evidence to satisfy any of the material elements of § 1519 for counts thirty-two and thirtyseven. We assess each element in turn.
1. Actus Reus
The government relied on Singh’s omission to satisfy § 1519’s actus reus element. Singh argues that the
language in § 1519 requires an affirmative act, and
that a mere omission, without an affirmative duty, cannot satisfy the element. Yet, many courts, including our
own, have found that an omission with the requisite
mental state satisfies the element. See, e.g., United
States v. Taohim, 529 F. App’x 969, 974 (11th Cir. 2013)
(per curiam); United States v. Moyer, 674 F.3d 192, 207
(3d Cir. 2012); United States v. Schmeltz, 667 F.3d 685,
687–88 (6th Cir. 2011); United States v. Jackson, 186

App. 24
F. App’x 736, 738–39 (9th Cir. 2006); see also United
States v. Lanham, 617 F.3d 873, 887 (6th Cir. 2010)
(“Material omissions of fact can be interpreted as an
attempt to ‘cover up’ or ‘conceal’ information.”). None of
these decisions analyzed in depth the question before
us; they instead assumed that an omission with the
requisite intent satisfies § 1519. But Singh cites no
case that has held that an omission does not satisfy the
requisite intent.
Two district courts have provided more extensive
analysis on the issue and concluded that an omission
constitutes a “false entry” within the meaning of
§ 1519. See United States v. Croley, No. 1:14-CR-29-2
(WLS), 2016 WL 1057015, at *5–6 (M.D. Ga. Mar. 14,
2016); United States v. Norman, 87 F. Supp. 3d 737,
743–46 (E.D. Pa. 2015). Croley found that the plain language of § 1519 “does not exclude a knowing and intentional omission being construed as a false report.” 2016
WL 1057015, at *5. Norman noted the lack of authority
on this precise issue, but drew from the generally accepted premise that an omission with the requisite
mental state constitutes a deceptive practice, and relied on a comparison to “an analogous statute,” 18
U.S.C. § 1005. 87 F. Supp. 3d at 744. Section 1005 prohibits “any false entry in any book, report, or statement
of [a] bank . . . with intent to injure or defraud such
bank . . . or to deceive any officer of such bank.” 18
U.S.C. § 1005. Both §§ 1519 and 1005 prohibit false entries with the requisite mental state, and “[u]nder
§ 1005, ‘an omission of material information qualifies
as a false entry.’ ” United States v. Weidner, 437 F.3d

App. 25
1023, 1037 (10th Cir. 2006) (quoting United States v.
Cordell, 912 F.2d 769, 773 (5th Cir. 1990)).
We find the district courts’ analyses convincing. It
is difficult to differentiate between the culpability of
one who intentionally omits information, and one who
conceals or falsifies information. It may also be difficult
to differentiate between acts of concealment and omission. Imagine, for example, an individual who omits
the detail of a specific, identifiable tattoo from a witness statement, in order to conceal the identity of a
perpetrator. In such a situation, the omission is an act
of concealment or falsification.
Singh observes that the text of § 1519 lists only
affirmative prohibited acts, and relies on the “interpretive canon, expressio unius est exclusio alterius, ‘expressing one item of [an] associated group or series
excludes another left unmentioned.’ ” Chevron U.S.A.
Inc. v. Echazabal, 536 U.S. 73, 80 (2002) (alteration in
original) (quoting United States v. Vonn, 535 U.S. 55, 65
(2002)). But “[h]owever well [statutory canons such as
expressio unius] may serve at times to aid in deciphering legislative intent, they have long been subordinated to the doctrine that courts will construe the
details of an act in conformity with its dominating general purpose.” SEC v. C. M. Joiner Leasing Corp., 320
U.S. 344, 350 (1943). Congress intended for § 1519 to
apply to a broad range of conduct. See S. Rep. No. 107146, at 14 (2002) (“Section 1519 is meant to apply
broadly to any acts to destroy or fabricate physical evidence so long as they are done with the intent to obstruct, impede, or influence the investigation or proper

App. 26
administration of any matter. . . .”) (emphasis added)).
This supports the conclusion that an omission satisfies
§ 1519’s actus reus element, especially since terms
such as “conceal” and “false entry,” specifically listed in
the statute, refer to similar actions.
Singh further argues that even if he omitted the
information that Azano was paying him for the social
media services he provided to the campaigns, he had
no duty to disclose that information. He claims that
since he played no role in preparing the campaign disclosure forms, his connection to any actions taken was
particularly tenuous. This argument has merit. In
most of the cases where courts affirmed § 1519 convictions based on omissions, the defendants either prepared the record or document, or were responsible for
doing so. See, e.g., Taohim, 529 F. App’x at 974 n.2 (finding that the jury could reasonably have found the defendant responsible for the report at issue); Moyer, 674
F.3d at 207 (finding that a chief of police had a legal
duty to disclose certain information in his report). The
campaign disclosure forms for the mayoral candidates
in this case were filed pursuant to San Diego’s Municipal Code section 27.2930(a) and California Government Code section 84200.5—both of which imposed the
reporting requirements on campaigns and candidates,
not on individuals “volunteering” or providing services
to the campaigns.
However, Singh was not simply convicted under
§ 1519. Instead, the jury instructions and the Indictment disclosed that the government proceeded under
18 U.S.C. § 2(b) in conjunction with § 1519. “[Section

App. 27
2(b)] is intended ‘to impose criminal liability on one
who causes an intermediary to commit a criminal act,
even though the intermediary who performed the act
has no criminal intent and hence is innocent of the substantive crime charged. . . .’ ” United States v. Richeson,
825 F.2d 17, 20 (4th Cir. 1987) (second alteration in
original) (quoting United States v. Tobon-Builes, 706
F.2d 1092, 1099 (11th Cir. 1983)). It specifically prohibits a person from “willfully caus[ing] an act to be done
which if directly performed by him or another would be
an offense against the United States.” 18 U.S.C. § 2(b).
Under this theory of liability, the actus reus element merges with the mens rea element to focus liability on the person harboring the criminal intent.
United States v. Curran, 20 F.3d 560, 567 (3d Cir. 1994)
(“Under section 2(b), the intermediary committing the
actus reus, the physical aspect of a crime, may be
blameless and, therefore, is not the person whom society seeks to punish. To fix blameworthiness on the actual malefactor, § 2(b) merges the mens rea and actus
reus elements and imposes liability on the person possessing the ‘evil intent’ to cause the criminal statute to
be violated.”). Thus, the government did not need to
prove that Singh prepared the reports or had a duty to
report Azano’s patronage; rather, that the campaign
had a duty to report the information is enough. See
United States v. Fairchild, 990 F.2d 1139, 1141 (9th Cir.
1993) (finding liability under § 2(b) because defendant’s actions caused false statements to be made to the
government).

App. 28
Proceeding under this theory is in line with Congress’s intention that § 1519 be broadly construed:
Finally, [section 1519] could also be used to
prosecute a person who actually destroys the
records himself in addition to one who persuades another to do so, ending yet another
technical distinction which burdens successful prosecution of wrongdoers.
S. Rep. No. 107-146, at 15 (emphasis added). Where, as
here, the campaign lacked the requisite intent because
it was unaware of Azano’s payments due to Singh’s silence, § 2(b) authorized holding accountable those with
the intent to conceal or falsify records.
2. Causation Under Section 2(b)
“When a defendant’s culpability is based, not on
his own communications with the federal agency, but
on information furnished to the agency by an intermediary, the element of intent takes on a different cast
than it does if a direct violation of [the underlying statute] is asserted.” Curran, 20 F.3d at 567. By proceeding
pursuant to § 2(b), the government had to show that
Singh “willfully” caused the false reporting. 18 U.S.C.
§ 2(b). Singh argues that Curran compels us to use the
Ratzlaf standard, which would require that he must
have known “the reporting requirements and intended
to cause them to be evaded.” But, under either the
Ratzlaf or Bryan standard, we find the evidence sufficient to affirm count thirty-two for Singh’s actions in
connection with the Dumanis campaign, although

App. 29
insufficient to affirm count thirty-seven in connection
with his actions regarding the Filner campaign.
The government presented sufficient evidence for
a jury to find that Singh willfully caused the Dumanis
campaign to file falsified reports, and so we affirm Appellants’ convictions under count thirty-two. The government established that Singh had a long history of
providing his professional services in connection with
political campaigns and elections, that he had operated
ElectionMall since 2003, and had even run for a political office himself at an earlier time. Tierney testified
that she warned Singh “[t]hat no one could pay someone to volunteer in a campaign,” and “[t]hat if any payments were made, those would have to be reported to
the campaign, and we would have to report them on a
[Form] 460.” Knowing these reporting requirements,
Singh still offered to “voluntarily help” and concealed
Azano’s payments by using code names and invoicing
through separate companies. The jury reasonably
could have found that Singh knew campaign disclosure
reports required disclosing in-kind contributions, and
that he withheld his funding to prevent such disclosures.5
Regarding Appellants’ convictions pursuant to
count thirty-seven—causing the Filner campaign to
file false reports—we find the evidence insufficient to
5

On this point, Singh also argues that the jury instructions
were erroneous. Due to the overwhelming evidence we have recited, however, we find any instructional error harmless beyond a
reasonable doubt. See Neder v. United States, 527 U.S. 1, 9–10
(1999).

App. 30
sustain either conviction. When the Filner campaign
asked about payment for Singh’s social media services,
Singh stated, “Don’t worry. It’s taken care of.” Clancy,
the campaign manager, did not respond with any questions, and later admitted, “I made a mistake. . . . I internalized the information. . . . I should have let
somebody know.” Singh’s statement cannot reasonably
be construed as willfully causing the Filner campaign
to file falsified reports. Instead, Singh’s statements
suggested that he was being paid by a third party, yet
the campaign failed to note this in the reports. This
cannot meet even the Bryan standard of willfulness,
and so we reverse both convictions under count thirtyseven.
3. Investigation
Singh also argues that the government did not
show that his actions were taken with “the intent to
impede, obstruct, or influence the investigation or
proper administration of any matter.” 18 U.S.C. § 1519.
He cites cases that focus on the nexus between the action and an investigation to argue that the government
erred “by conflating the intent to commit the underlying crime with the intent to impede a subsequent investigation.”
On its face, the statute is particularly broad regarding the investigation element. One need not impede, obstruct, or influence an actual ongoing investigation;
instead, the mere fact that the defendant contemplates
an investigation satisfies this element. United States v.

App. 31
Gonzalez, 906 F.3d 784, 793–96 (9th Cir. 2018). Congress intentionally relaxed this requirement to allow
the statute to reach more broadly. See S. Rep. No. 107146, at 14–15 (“This statute is specifically meant not to
include any technical requirement, which some courts
have read into other obstruction of justice statutes, to
tie the obstructive conduct to a pending or imminent
proceeding or matter. It is also sufficient that the act is
done ‘in contemplation’ of or in relation to a matter or
investigation.”).6
Reading the section broadly, the government presented sufficient evidence to prove this element. The
government established that Singh had a long history
of involvement in campaigns and elections, and that he
was warned about the reporting requirements in the
San Diego mayoralty campaigns. Still, Singh stated he
would “voluntarily help” and did not disclose any payments by Azano. Singh limited any paper trail by using
code names and admonishing those discussing Azano’s
payments in emails. From this evidence, a jury could
reasonably infer that Singh contemplated an investigation due to unlawful activity and intended to direct
that investigation away from himself.

6

Our sister circuits have similarly interpreted the section
broadly. See, e.g., United States v. Moore, 708 F.3d 639, 649 (5th
Cir. 2013); United States v. Kernell, 667 F.3d 746, 755 (6th Cir.
2012); United States v. Gray, 642 F.3d 371, 378–79 (2d Cir. 2011).

App. 32
4. Jurisdiction
Lastly, Singh argues that any investigation of his
conduct is not within the jurisdiction of the United
States, because it involved a local campaign, and the
falsified campaign disclosure forms violated state and
local laws, not federal law. Section 1519 requires that
the conduct “influence the investigation or proper administration of any matter within the jurisdiction of
any department or agency of the United States.” 18
U.S.C. § 1519 (emphasis added).
Singh misconstrues the focus of the investigation.
We agree that violations of state campaign disclosure
laws do not fall within the jurisdiction of the United
States; however, the Federal Bureau of Investigation
(FBI) has jurisdiction to investigate violations of
FECA. This extends to state and local elections insofar
as the FBI investigates donations by a foreign national. Here, the FBI did investigate the campaigns,
due to Azano’s foreign nationality. That the reports
were filed pursuant to state law has no bearing since
they were sought in connection with the investigation
of a federal crime.
Singh cites United States v. Facchini, 874 F.2d 638
(9th Cir. 1989) (en banc), and United States v. Ford, 639
F.3d 718 (6th Cir. 2011), to support his argument. Both
cases involved prosecutions pursuant to 18 U.S.C.
§ 1001, and both cases found no “direct relationship . . .
between the false statement and an authorized function of a federal agency or department.” Facchini, 874
F.2d at 641; see also Ford, 639 F.3d at 720–22. In

App. 33
contrast, the government here focused on donations
and contributions by a foreign national, and those fall
within the jurisdiction of the FBI.7
B
Azano also argues there was insufficient evidence
to affirm his remaining convictions under counts five
through thirty-one and thirty-three through thirty-six.
We conclude that the government presented sufficient
evidence to show that Azano willfully caused the campaigns to make false entries on campaign disclosure
forms with the intent of obstructing a potential investigation. Chase testified that Azano asked him to recruit straw donors for the Dumanis campaign and
make a large donation to a Filner PAC, and promised
to reimburse him for those donations. Azano also
tasked his employee, Jason Wolter, and his own son,
Hester, to “recruit . . . friends . . . to write a $ 500 check
to the campaign.” The government presented a ledger
seized from Azano’s home that tallied all straw donations obtained. Azano made no direct donations, but
his U.S.-based company, AIRSAM, made a $100,000
donation to fund a Dumanis PAC. A local newspaper
article traced the money back to Azano, questioning whether the donation was legal due to Azano’s
7

Singh argues that the rule of lenity directs us to resolve any
ambiguity in § 1519 in his favor. But even if we were to agree that
the statute is ambiguous, we would refuse to apply the rule of
lenity in this case given the strong evidence that Appellants knew
that their actions were unlawful. See United States v. Nader, 542
F.3d 713, 721 (9th Cir. 2008).

App. 34
immigration status. The government noted that, subsequently, Azano never made another donation
through AIRSAM. All of the evidence presented allowed a rational trier of fact to find that Azano knowingly caused the campaigns to make false entries on
campaign disclosure forms with the intent to obstruct
a potential investigation.
Azano additionally argues that there was insufficient evidence to convict him of count thirty-three,
which involved a $100,000 donation from AIRSAM to
a Dumanis PAC. While Azano correctly notes that AIRSAM may legally donate to a PAC, see Citizens United
v. FEC, 558 U.S. 310, 372 (2010), the government proceeded under the theory that AIRSAM was a straw donor for Azano, who had no constitutional right to
donate. We find that the government presented sufficient evidence that Azano put the funds into AIRSAM’s
account to disguise the donation, much like the straw
donations provided by U.S. citizens. The government
presented documentation showing that AIRSAM’s
bank account did not have the funds on May 8, 2012—
the date on the check to Dumanis’s PAC—to pay the
$100,000 pledged. The government then presented
bank statements showing transfers from Azano’s personal bank account ($125,000) and from his Mexican
company ($300,000) into AIRSAM’s account.
In summation, we hold that an omission satisfies
the actus reus element for § 1519. A reasonable jury
could have found beyond a reasonable doubt that
Singh’s omission willfully caused Dumanis’s campaign
to file false reports, and so we affirm Azano’s and

App. 35
Singh’s convictions under count thirty-two. Furthermore, a reasonable jury could have found beyond a reasonable doubt that Azano concealed his identity from
these campaigns by recruiting straw donors, and that
he willfully caused both campaigns to file false reports.
We therefore affirm Azano’s convictions under counts
five through thirty-six. Finally, finding the evidence insufficient to prove that Singh willfully caused the Filner campaign to file false records, we reverse
Appellants’ convictions under count thirty-seven.
IV
Singh next appeals his conviction for conspiracy,
charged in count one. First, he argues that the court
failed “to instruct the jury that evidence of more than
one conspiracy was presented to the jury.” We review
de novo whether the jury instructions adequately cover
the defendant’s theory of the case. Liew, 856 F.3d at
595–96.
We find that the following jury instruction adequately covered Singh’s multiple conspiracy theory:
[The jury] must decide whether the conspiracy charged in Count 1 of the Indictment existed, and, if it did, who at least some of its
members were. If you find that the conspiracy
charged did not exist for the charged Count,
then you must return a not guilty verdict for
that Count, even though you may find that
some other conspiracy existed. Similarly, if
you find that any defendant was not a member of the charged conspiracy, then you must

App. 36
find that defendant not guilty for that Count,
even though that defendant may have been a
member of some other conspiracy.
Thus, the jury had to find that Singh participated in
the charged conspiracy; if not, “even though [Singh]
may have been a member of some other conspiracy,”
the jury was instructed to return a not guilty verdict.
It was the jury that had to decide whether a conspiracy
or multiple conspiracies existed, and the court’s jury
instruction adequately presented this theory. See
United States v. Loya, 807 F.2d 1483, 1492–93 (9th Cir.
1987).
Singh also argues that there was insufficient evidence of a single conspiracy to sustain his conviction.
Instead, he claims that the government proved only a
“rimless conspiracy” under which his conviction could
not stand. “Whether a single conspiracy has been
proved is a question of the sufficiency of the evidence,”
and we review such claims de novo. United States v.
Fernandez, 388 F.3d 1199, 1226 (9th Cir. 2004), as
amended, 425 F.3d 1248 (9th Cir. 2005).
To determine whether a single conspiracy or multiple conspiracies have been proven, we employ the following test:
A single conspiracy can only be demonstrated
by proof that an overall agreement existed
among the conspirators. Furthermore, the evidence must show that each defendant knew,
or had reason to know, that his benefits were
probably dependent upon the success of the
entire operation. Typically, the inference of an

App. 37
overall agreement is drawn from proof of a
single objective . . . or from proof that the key
participants and the method of operation remained constant throughout the conspiracy.
The inference that a defendant had reason to
believe that his benefits were dependent upon
the success of the entire venture may be
drawn from proof that the coconspirators
knew of each other’s participation or actually
benefitted from the activities of his coconspirators.
Id. (quoting United States v. Duran, 189 F.3d 1071,
1080 (9th Cir. 1999)). “[I]f the indictment alleges a single conspiracy, but the evidence at trial establishes
only that there were multiple unrelated conspiracies,
there is insufficient evidence to support the conviction
on the crime charged, and the affected conviction must
be reversed.” Id. at 1226–27. Nonetheless, “[a] single
conspiracy may involve several subagreements or subgroups of conspirators.” United States v. Bibbero, 749
F.2d 581, 587 (9th Cir. 1984).
The Indictment alleged a single conspiracy. Singh
argues that his only objective was to make money for
his social media business, not to influence elections. Yet
the jury could reasonably have concluded that Singh’s
goal was broader. In an email from Dumanis to her
campaign staff, she reported that she “got a call, conference call, from Ernie Encinas, Susumo Azano, and
Ravi Singh . . . [Singh] apparently flew to SD just to
talk with Mr. A who wanted him to talk to me!” In an
email between Singh and Encinas, Encinas mentioned,
“[Azano] was upset about the money he said he sent

App. 38
you to form a PAC and do the social media.” These interactions with Azano suggested that Singh’s role was
not limited to his social media business, but included
generally assisting Azano with the campaigns.
Furthermore, the key participants and method of
operations remained the same throughout the period
of the conspiracy. All co-defendants acted from at least
December 2011 to November 2012. Singh spoke with
Azano and then flew to San Diego to meet with the Dumanis campaign at the end of December. At the same
time, Chase and Hester secured straw donors to contribute to Dumanis’s campaign. Just as Chase, Hester,
and Encinas concealed Azano’s donations to the campaigns, so too Singh concealed Azano’s patronage. Once
Dumanis lost the primary, all the participants proceeded to support the Filner campaign in much the
same way. The jury could reasonably have inferred an
overall agreement from the proof of a single goal, or
from proof that these key participants and their general operations remained constant throughout the conspiracy.
It might be a closer question whether Singh knew,
or had reason to know, about the other co-conspirators’
participation. The government provided sufficient evidence that Singh knew Azano and Encinas and the role
they played in coordinating efforts for the San Diego
mayoral race, but there is no direct evidence that
Singh knew of the subgroup who obtained straw donors. However, the government did not need to show
that Singh “knew all of the purposes of and all of
the participants in the conspiracy.” United States v.

App. 39
Kearney, 560 F.2d 1358, 1362 (9th Cir. 1977). Instead,
while there may not have been proof of direct
knowledge of Hester’s, Cortes’s, or Chase’s contributions, there was proof that Singh benefitted from them,
as they all worked towards election of mayoral candidates. The straw donations that Hester, Cortes, and
Chase obtained, whether for the individual campaigns
or for PACs, affected Singh’s success as a “volunteer”
for the campaigns. All of their efforts benefitted the
common goal of electing Azano’s chosen mayoral candidates. Under the standard in Fernandez, this was
sufficient to show a single conspiracy.
V
Azano was also convicted of unlawfully possessing
a firearm as an alien in violation of 18 U.S.C.
§ 922(g)(5)(B), which states,
(g)

It shall be unlawful for any person—
...
(5)

who, being an alien—
...
(B except as provided in subsection
(y)(2), has been admitted to the
United States under a nonimmigrant
visa (as that term is defined in section 101(a)(26) of the Immigration and
Nationality Act (8 U.S.C. 1101(a)(26)));

App. 40
...
to . . . possess in or affecting commerce, any
firearm or ammunition . . .
Subsection “(g)(5)(B) . . . do[es] not apply to any alien
who has been lawfully admitted to the United States
under a nonimmigrant visa, if that alien is . . . admitted to the United States for lawful hunting or sporting
purposes or is in possession of a hunting license or
permit lawfully issued in the United States.” Id.
§ 922(y)(2) (emphasis added).
The State Department admitted Azano to the
United States through several B1/B2 visas “issued to
someone who wishes to visit the United States for personal pleasure and limited business.” A nonimmigrant
visitor for business is granted a B1 visa, while a visitor
for pleasure is granted a B2 visa. 22 C.F.R. § 41.31(a).
“The term pleasure . . . refers to legitimate activities of
a recreational character, including tourism, amusement, visits with friends or relatives, rest, medical
treatment, and activities of a fraternal, social, or service nature.” Id. § 41.31(b)(2).
Azano does not dispute that he was admitted under a nonimmigrant visa, but makes three arguments
challenging his conviction under § 922(g)(5)(B). First,
Azano argues that § 922(g)(5)(B) is unconstitutional
because it violates his Second Amendment right to
possess a firearm. Next, he argues that the possession of a gun can be “of a recreational character” and
for “amusement” and thus, B2 visa holders qualify
for § 922(y)(2)’s “sporting purposes” exception. Lastly,

App. 41
Azano alternatively argues that if the regulations and
statute do not authorize B2 holders to possess a gun,
the statute is unconstitutionally vague as applied to
him. We address each argument in turn.
A.
Azano’s Second Amendment challenge comes on
the heels of our recent decision in United States v.
Torres, where we held that § 922(g)(5)(A), which prohibits aliens illegally or unlawfully in the United
States from possessing firearms, does not violate the
Second Amendment. 911 F.3d 1253, 1264–65 (9th Cir.
2019). We must now consider whether § 922(g)(5)(B), a
similar prohibition that applies to nonimmigrant visa
holders, violates the Second Amendment.
To analyze whether a statute violates the Second
Amendment, we utilize a two-step test, which “(1) asks
whether the challenged law burdens conduct protected
by the Second Amendment and (2) if so, directs courts
to apply an appropriate level of scrutiny.” United
States v. Chovan, 735 F.3d 1127, 1136 (9th Cir. 2013).
Under the first step, we must determine whether the
law burdens the Second Amendment “based on a ‘historical understanding of the scope of the [Second
Amendment] right.’ ” Jackson v. City and Cty. of San
Francisco, 746 F.3d 953, 960 (9th Cir. 2014) (alteration
in original) (quoting District of Columbia v. Heller, 554
U.S. 570, 625 (2008)). In Torres, we attempted to trace
the historical understanding of the right by looking
primarily at the Supreme Court’s decision in Heller

App. 42
and decisions by our sister circuits. We noted that
while Heller did not resolve who exactly possesses a
Second Amendment right, the decision “described the
Second Amendment as ‘protect[ing] the right of citizens’ and ‘belong[ing] to all Americans.’ ” Torres, 911
F.3d at 1259 (alterations in original) (quoting Heller,
554 U.S. at 581, 595). Additionally, we observed that
while all of our sister circuits that had analyzed the
constitutionality of § 922(g)(5)(A) had found the statute constitutional, they had differed in their assessment of its historical scope. Compare United States v.
Portillo-Munoz, 643 F.3d 437, 440 (5th Cir. 2011) (concluding that “the people” does not include illegal aliens
given Heller’s descriptions of the right extending to
those in “the political community”), United States v.
Flores, 663 F.3d 1022, 1023 (8th Cir. 2011) (per curiam)
(agreeing with the Fifth Circuit), and United States v.
Carpio-Leon, 701 F.3d 974, 979 (4th Cir. 2012)
(“[I]llegal aliens do not belong to the class of law-abiding members of the political community to whom the
Second Amendment gives protection.”), with United
States v. Meza-Rodriguez, 798 F.3d 664, 670–72 (7th
Cir. 2015) (applying the sufficient connections test in
United States v. Verdugo-Urquidez, 494 U.S. 259
(1990), to determine that the unlawful alien had sufficient connections to the United States to be afforded
Second Amendment rights), and United States v.
Huitron-Guizar, 678 F.3d 1164, 1168 (10th Cir. 2012)
(refusing to determine whether unlawful aliens are
within the scope of the Second Amendment and instead assuming it for the second part of the analysis).
After this analysis, we noted that “the state of the law

App. 43
precludes us from reaching a definite answer on
whether unlawful aliens are included in the scope of
the Second Amendment right.” Torres, 911 F.3d at
1261.
Even though we address a lawfully admitted,
nonimmigrant alien in this case, the same ambiguity
exists. Some courts have read the historical right as
one afforded only to citizens or those involved in the
political community, while others have focused instead
on an individual’s connection to the United States.
Nonimmigrant aliens, like those unlawfully present,
are neither citizens nor members of the political community. By definition, “[a]n alien is classifiable as a
nonimmigrant visitor for business (B-1) or pleasure (B2) if . . . [t]he alien intends to leave the United States
at the end of the temporary stay.” 22 C.F.R. § 41.31(a).
In order to grant such a visa, the government ensures
that the individual “has permission to enter a foreign country at the end of the temporary stay” and
“[a]dequate financial arrangements . . . to carry out the
purpose of the visit to and departure from the United
States.” Id. The government argues that because such
measures ensure a temporary visit, a short-term visitor could not be part of “the people” any more than unlawful or illegal aliens who attempt to permanently
reside in the United States. While this argument does
not lack force, we believe it prudent to follow Torres,
“assume (without deciding) that the Second Amendment extends to” nonimmigrant visa holders, and proceed to the second step of the analysis. 911 F.3d at
1261.

App. 44
In Torres, we determined that the appropriate
level of scrutiny to apply to a Second Amendment challenge of § 922(g)(5) is intermediate. Id. at 1262–63
(explaining that “§ 922(g)(5) does not implicate the
core Second Amendment right, and . . . its burden is
tempered”). Intermediate scrutiny requires “(1) the
government’s stated objective to be significant, substantial, or important; and (2) a reasonable fit between
the challenged regulation and the asserted objective.”
Chovan, 735 F.3d at 1139. The government does not
need to show that the statute is “the least restrictive
means of achieving its interest,” but rather “only that
[the statute] promotes a ‘substantial government interest that would be achieved less effectively absent
the regulation.’ ” Fyock v. City of Sunnyvale, 779 F.3d
991, 1000 (9th Cir. 2015) (quoting Colacurcio v. City of
Kent, 163 F.3d 545, 553 (9th Cir. 1998)).
The government’s interest in this case is straightforward. The government’s interest is the same as in
Torres—crime control and maintaining public safety.
This objective has repeatedly been recognized as important within our circuit and elsewhere. See, e.g., Heller, 554 U.S. at 626–27 (recognizing that regulations on
gun possession or ownership may be lawful due to the
government’s interest in public safety); Mahoney v.
Sessions, 871 F.3d 873, 882 (9th Cir. 2017); United
States v. Yancey, 621 F.3d 681, 684–85 (7th Cir. 2010).
Further, the statute reasonably serves this important interest. It carves out exceptions for visa holders who are less likely to threaten public safety. Section
922(y)(2), for example, exempts those that come to the

App. 45
United States for hunting or sporting purposes. And,
§ 922(y)(3) creates a broad waiver for visa holders who
have “resided in the United States for a continuous period of not less than 180 days” if they receive a statement of support from their embassy or consulate, and
the Attorney General confirms that they do not “jeopardize the public safety.” 18 U.S.C. § 922(y)(3)(B)(i)–(ii),
(C)(ii). We find this tailoring sufficient.
In summary, § 922(g)(5)(B)’s prohibition on firearm possession and ownership by nonimmigrant visa
holders serves an important public interest in crime
control and public safety, without substantially burdening a nonimmigrant visa holder’s assumed Second
Amendment right. We therefore hold that § 922(g)(5)(B)
survives intermediate scrutiny.
B.
We turn next to Azano’s claim that his possession
of a gun fell within the “pleasure” designation in 22
C.F.R. § 41.31(b)(2) or automatically qualified as a
“sporting purpose” pursuant to 18 U.S.C. § 922(y)(2).
Azano further argues that if the regulations and statute are not interpreted this way, they are void for
vagueness. We review the interpretation of a statute,
and whether it is unconstitutionally vague, de novo.
United States v. Robertson, 875 F.3d 1281, 1286–87 (9th
Cir. 2017).
Azano first argues that all B2 nonimmigrant visa
holders should be permitted to own firearms, as their
very presence is an “activit[y] of a recreational

App. 46
character.” 22 C.F.R § 41.31(b)(2). But the plain language of § 922(g)(5)(B) betrays Azano’s argument. Section 922(g)(5)(B) applies directly to nonimmigrant visa
holders. Azano agrees that B2 visa holders are nonimmigrant visa holders, yet simply states that we should
interpret “pleasure” activities to include firearm ownership. However, “[a]bsent persuasive indications to
the contrary, we presume Congress says what it means
and means what it says.” Simmons v. Himmelreich, 136
S. Ct. 1843, 1848 (2016).
Azano’s next position—that firearm possession for
“sporting purposes” is a pleasure activity—necessarily
implies that all B2 visa holders fall under § 922(y)(2)’s
exception. “In construing provisions . . . in which a general statement of policy is qualified by an exception, we
usually read the exception narrowly in order to preserve the primary operation of the provision.” Comm’r
v. Clark, 489 U.S. 726, 739 (1989). This interpretive
method guides our analysis here. Section 922(g)(5)(B)
plainly prohibits firearm possession by B2 visa holders, subject only to limited exceptions clearly spelled
out in § 922(y). Had Congress intended for the sporting
purposes exception in § 922(y)(2)(A) to apply to all B2
visa holders, it would have said so explicitly.
Further, the record illustrates just how overinclusive Azano’s proffered definition would be. Azano has
never claimed that he engaged in hunting activities for
pleasure or used the firearm for sporting purposes.8
8

To the extent that Azano now claims that he qualified under § 922(y)(2), he failed to raise this affirmative defense below,

App. 47
Instead, he offered evidence suggesting that he possessed the gun solely for protection. Concluding that
firearm ownership automatically qualifies as a “pleasure” activity or “sporting purpose” would thus be difficult in the light of the facts of this case alone.
Azano’s void-for-vagueness claim also fails. A statute is unconstitutionally vague if it “fails to provide
people of ordinary intelligence a reasonable opportunity to understand what conduct it prohibits.” SEC
v. Gemstar-TV Guide Int’l, Inc., 401 F.3d 1031, 1048
(9th Cir. 2005) (en banc) (quoting Hill v. Colorado, 530
U.S. 703, 732 (2000)). Section 922(g)(5)(B) quite clearly
prohibits possession of firearms by all those admitted
to the United States under a nonimmigrant visa. Section 922(y)(2) includes an exception to this general rule
for nonimmigrant visa holders who visit the United
States for lawful hunting or sporting purposes. We interpret “sporting purposes” according to the narrow
provision that includes it. The exception reasonably
implies sporting activities that involve the use of guns,
such as target shooting, or trap and skeet shooting. It
does not suggest a broader definition including all recreational activities or possession of guns for pleasure.
Section 922(y)(2)’s legislative history also supports
this interpretation:
[I]f you are someone who has come to the
United States for lawful hunting or sporting
hunts . . . that person is exempt. That person
and so it is forfeited. See Brannan v. United Student Aid Funds,
Inc., 94 F.3d 1260, 1266 (9th Cir. 1996).

App. 48
may purchase a gun while here for that purpose.
144 Cong. Rec. S8641 (daily ed. July 21, 1998) (statement of Sen. Durbin).
B1/B2 nonimmigrant visa holders do not automatically qualify for § 922(y)(2)’s exception and, by a plain
reading of the statute, are subject to the prohibition on
gun possession. Furthermore, § 922(y)(2) is not unconstitutionally vague as applied to B1/B2 visa holders.
Accordingly, we affirm the district court’s holdings and
Azano’s conviction under § 922(g)(5)(B).
VI
Finally, Appellants seek our review of the district
court’s denial of several trial motions. First, Azano argues that the district court abused its discretion in
denying his motion for a new trial based on alleged ineffective assistance of his trial counsel, Michael
Wynne. Singh also argues that the district court
abused its discretion when denying his motion to sever
the trial from co-defendants Cortes and Hester.
A.
“[W]hen a claim of ineffective assistance of counsel
is first raised in the district court prior to the judgment
of conviction, the district court may, and at times
should, consider the claim at that point in the proceeding.” United States v. Steele, 733 F.3d 894, 897 (9th Cir.
2013) (quoting United States v. Brown, 623 F.3d 104,

App. 49
113 (2d Cir. 2010)). However, the decision of whether to
review the claim “is best left to the discretion of the
district court.” Id. “We are mindful that district courts
face competing considerations in deciding whether it is
appropriate to inquire into the merits of [ineffective assistance] claims prior to judgment, including . . . the
. . . disruption of the proceedings.” Id. at 898 (alterations in original) (quoting Brown, 623 F.3d at 113).
Such considerations include “the existence of evidence
already in the record indicating ineffective assistance
of counsel,” “the scope of the evidentiary hearing that
would be required to fully decide the claim,” and the
need to relieve trial counsel, appoint new counsel, or
consider the availability of post-conviction counsel if
the claim is not heard until then. Id.
In denying Azano’s motion for a new trial, the district court explained that “the trial record here is not
sufficiently developed to enable the [c]ourt to resolve
the multiple and varied ineffective assistance of counsel claims being asserted by Mr. Azano. . . . Mr. Azano
sets forth, by my count, no less than a dozen separate
grounds in support of that claim, each of which would
have to be considered and evaluated individually.” The
court agreed with the government that there would be
“a long delay in resolving the case, and . . . [it] would
run afoul of this [c]ourt’s duty to promote the interest
of justice and judicial economy.”
The district court did not abuse its discretion. We
agree with the court that there are a number of claims
at issue even though Azano frames his motion as a single ineffective assistance of counsel claim. We observe,

App. 50
at a minimum, ineffective assistance of counsel claims
for failure to proffer a defense, failure to introduce exculpatory evidence, and failure to adequately investigate. To address such claims, the court would have
needed to examine counsel’s reasons and motivations
for taking and not taking certain actions, which would
have resulted in a prolonged evidentiary hearing. Additionally, Azano’s ability to retain post-conviction representation relieves concerns that the claim may not
receive due consideration in a collateral proceeding.
Other considerations weigh in Azano’s favor.
Azano appointed another attorney for post-trial motions, eliminating the district court’s need “to relieve
the defendant’s attorney, or in any event, to appoint
new counsel in order to properly adjudicate the merits
of the claim.” Id. (quoting Brown, 623 F.3d at 113). Further, waiting for post-conviction relief may result in
some prejudice to Azano by “weakening of memories
and aging of evidence,” as well as time Azano will be
incarcerated waiting for the claims to be heard. Id. at
897. Still, given the considerations weighing against
Azano, we cannot say the district court abused its discretion.
Azano also requests that we review his ineffective
assistance of counsel claim directly on appeal. Generally, we will not entertain ineffective assistance of
counsel claims on direct appeal because the record is
often undeveloped “as to what counsel did, why it was
done, and what, if any, prejudice resulted.” United
States v. Andrews, 75 F.3d 552, 557 (9th Cir. 1996)
(quoting United States v. Rewald, 889 F.2d 836, 859

App. 51
(9th Cir. 1989)). “This is so even if the record contains
some indication of deficiencies in counsel’s performance.” Massaro v. United States, 538 U.S. 500, 504
(2003). We will consider an ineffective assistance claim
on direct appeal only “where the record is sufficiently
developed to permit review and determination of the
issue, or the legal representation is so inadequate that
it obviously denies a defendant his Sixth Amendment
right to counsel.” Steele, 733 F.3d at 897 (quoting
United States v. Rivera-Sanchez, 222 F.3d 1057, 1060
(9th Cir. 2000)). Neither circumstance applies here.
B.
Singh argues that the district court abused its discretion in denying his motion to sever his trial from all
defendants except Azano. However, “[i]t is well settled
that the motion to sever ‘must be renewed at the close
of evidence or it is waived.’ ” United States v. Alvarez,
358 F.3d 1194, 1206 (9th Cir. 2004) (quoting United
States v. Restrepo, 930 F.2d 705, 711 (9th Cir. 1991)).
The record does not show that Singh’s counsel renewed
the motion, nor does Singh proffer any reason as to
why such waiver should not apply. Accordingly, we find
that Singh waived this argument.
Relatedly, Singh argues that the joint trial compromised his due process rights due to the “irresponsible actions of Azano’s attorney.” Singh points us to
People v. Estrada, 75 Cal. Rptr. 2d 17 (1998), as authority for such a claim. In Estrada, the state court found
that co-defendant’s counsel improperly suggested that

App. 52
the defendant was more culpable than his client. Id. at
23. Even if we were to recognize that such conduct
gives rise to a due process violation, the record does not
show that Azano’s counsel made any similar suggestion here.
CONCLUSION
We reverse Azano’s and Singh’s convictions under
count thirty-seven for falsification of campaign records, finding the evidence insufficient to support all
material elements. We affirm all other convictions. We
vacate Azano’s and Singh’s sentences and remand for
re-sentencing in accordance with this opinion.
AFFIRMED IN PART, REVERSED IN PART,
and REMANDED FOR RE-SENTENCING.

App. 53
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.
RAVNEET SINGH, AKA
Ravi Singh,

No. 17-50337
D.C. No.
3:14-cr-00388-MMA-2
Southern District of
California, San Diego
ORDER

Defendant-Appellant. (Filed Jul. 30, 2019)

UNITED STATES
OF AMERICA,
Plaintiff-Appellee,

No. 17-50387
D.C. No.
3:14-cr-00388-MMA-1

v.
JOSE SUSUMO AZANO
MATSURA, AKA Mr. A,
AKA Mr. Lambo,
Defendant-Appellant.
Before: M. SMITH, WATFORD, and HURWITZ, Circuit Judges.
The panel has unanimously voted to deny Appellants Singh’s and Azano’s petitions for panel rehearing.
The full court has been advised of Appellants’ petitions
for rehearing en banc, and no judge of the court has

App. 54
requested a vote on either. Fed. R. App. P. 35. The petitions for rehearing and rehearing en banc (Dkt. 84, 85)
are DENIED.

